March 8, 2010

C. MICHAEL HARLOW
DISTRICT MANAGER, BALTIMORE DISTRICT

SUBJECT: Audit Report – Grievance Overpayments in the
         Baltimore District (Report Number HR-AR-10-001)

This report presents the results of our audit of grievance overpayments in the Baltimore
District (Project Number 10YG007HR000). Our audit objective was to determine the
value of grievance overpayments in the Baltimore District and evaluate the U.S. Postal
Service’s actions to recover them. This was a self-initiated audit based on information
obtained through our Human Capital Optimization Risk Model (HCORM). This audit
addresses financial risk. See Appendix A for additional information about this audit.

Conclusion

We determined the Baltimore District made grievance overpayments of approximately
$1.7 million on October 29, 2008. The Postal Service has initiated actions consistent
with established written policies and procedures to recover these overpayments.
However, we found that internal controls over disbursement of grievance payments
were not sufficient.

Baltimore District Grievance Overpayments

Baltimore District officials approved disbursement of a grievance settlement for
out-of-schedule1 pay resulting in overpayments to affected clerks of approximately
$1.7 million. This occurred because the responsible manager made an error in
preparing a Microsoft Office Excel (Excel) spreadsheet that overstated out-of schedule
hours. The manager applied employee pay rates to the overstated hours on the Excel
spreadsheet, resulting in approximately $1.7 million in overpayments. We also
determined internal controls over the settlement disbursements were not sufficient to
ensure the payment amounts were accurate. As a result, although the Postal Service is
seeking reimbursement, there is a risk that it will not be able to recoup all of the
overpaid funds. See Appendix B for our detailed analysis of this topic and Appendix C
for monetary impact.



1
    Employees are working out-of-schedule when performing duties outside of their assigned shift.
Grievance Overpayments in the Baltimore District                           HR-AR-10-001



Recommendations

We recommend the Baltimore District manager direct the manager, Labor Relations, to:

1. Establish and implement internal controls, such as peer/management reviews or
   reasonableness tests, to ensure the accuracy of grievance payment calculations.

Management’s Comments

Management agreed with the findings and recommendation and has initiated corrective
action. We have included management’s comments, in their entirety, in Appendix D.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive and the corrective actions should address the issues identified in
the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: cc: Jerry D. Lane
        Jerry D. Clark
        Sally K. Haring




                                                   2
Grievance Overpayments in the Baltimore District                                                  HR-AR-10-001



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

A grievance is a dispute, difference, or disagreement between parties; or complaint by a
party regarding wages, hours, or conditions of employment. A grievance includes, but
is not limited to, an employee or union complaint involving the interpretation or
application of, or compliance with, the provisions of a collective bargaining agreement or
any local Memorandum of Understanding not in conflict with the agreements.2 A
common resolution to a grievance includes monetary payments to employees.

On October 19, 2007, the Postal Service and the American Postal Workers Union
(APWU) settled a class-action grievance related to the Postal Service identifying clerk
craft employees as “excess” in fiscal years (FY) 2006 and 2007.3 The settlement
established specific dates for returning senior clerks to duty and resolved out-of-
schedule pay for affected clerk craft employees in the Baltimore District. On October
29, 2008, the Postal Service disbursed the out-of-schedule pay.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine the value of grievance overpayments identified in the
Baltimore District and evaluate the Postal Service’s actions to recover the
overpayments. To accomplish our objective, we interviewed Postal Service officials at
headquarters, Capital Metro Area, and personnel in Baltimore District Labor Relations to
confirm our understanding of events resulting in the overpayments, actual amounts
owed, and the potential for recovery. We also reviewed the settlement agreement
between the Postal Service and the APWU, as well as policies and procedures
regarding the establishment and recovery of employee debts. Additionally, we reviewed
grievance arbitration tracking system (GATS) payment data for FY 2009, Quarters 1
through 3 to identify instances of overpayments in other districts, their attempts to
recover those funds, and other documents as appropriate.

We conducted this performance audit from October 2009 through March 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations


2
  Handbook EL-912 - Agreement between United States Postal Service and American Postal Workers Union, AFL-
CIO 2006-2010, Article 15: Grievance-Arbitration Procedure.
3
  When the Postal Service determines that it has surplus employees in a craft, it is allowed to identify those
employees as excess. Once identified as excess, the Postal Service and union agreements allow reassignment of
these employees to alternate duties or schedules.




                                                       3
Grievance Overpayments in the Baltimore District                                 HR-AR-10-001



and conclusions with management officials on January 19, 2010, and included their
comments where appropriate.

To perform this audit we relied on computer-generated data from GATS, the payroll
system, and employee accounts receivable system. We tested the reliability of the data
obtained from these systems by performing transaction tests, which included tracing
selected information to supporting source records. Based on these tests, we
determined the data was reliable for the purpose of the audit.

PRIOR AUDIT COVERAGE

We did not identify any prior audits or reviews related to the objective of this audit.




                                                   4
Grievance Overpayments in the Baltimore District                                                    HR-AR-10-001



                                APPENDIX B: DETAILED ANALYSIS

Baltimore District Grievance Overpayments

The Postal Service uses GATS to capture grievance payments made in all districts.
Grievance payments are an indicator in the OIG’s HCORM. While updating the
HCORM for FY 2009, Quarter 3, we identified a negative grievance payout of
$1,596,123 for the Baltimore District.4

We reviewed the Baltimore District’s negative payout and determined that it represented
a processing error related to a grievance settlement. The Baltimore District issued
payments related to the grievance settlement totaling $2.3 million. However, the district
made approximately $1.7 million of the payments in error. We discussed the error with
Postal Service officials and determined a manager erred while preparing an Excel
spreadsheet. The spreadsheet overstated out-of schedule hours and, as a result, the
Postal Service overpaid 94 employees. The manager did not use internal controls, such
as peer or management reviews or reasonableness tests built into the Excel
spreadsheet. Implementing internal controls like those identified could prevent a similar
mistake in future grievance payments.

Postal Service policy states that postmasters or installation heads are responsible for
initiating the collection of debts owed to the Postal Service. The Postal Service is also
required to issue demand letters to employees who are indebted.5 Many of the
overpayments to affected employees are substantial6 and the employees have grieved
the demand letters the Postal Service issued requesting reimbursement. If the union
validates a case for financial hardship with regard to the repayment of these amounts,
the likelihood of recovery by the Postal Service may be negatively impacted. Baltimore
District officials indicated these grievances are currently at step 2 in the grievance-
arbitration process. 7 As a result, the agency has recovered no monies.

Other Matters

We also identified negative payouts in GATS of $15,093 and $245,686 for the Long
Island and Louisiana Districts, respectively. A negative payout in GATS is an anomaly.
Payouts reported in GATS represent the disbursement of cash to employees; as such, a
negative payout would represent the collection of cash from employees, suggesting a
grievance payment had been made by an employee to the Postal Service. We did not

4
  The $1,596,123 represents the net value of all grievance payments for the Baltimore District, as recorded in GATS
for reporting period 7. The $1.7 million represents the amount of overpayments related to the grievance settlement.
5
  Employee and Labor Relations Manual, Issue 19.2, Sections 462.11 and 462.12, dated April 2008 and updated with
Postal Bulletin revisions through May 7, 2009.
6
  Forty-four of the 94 payments exceeded $20,000.
7
  The APWU grievance-arbitration process generally consists of three steps to resolve grievances. The first step
involves a discussion between the immediate supervisor and the grievant and/or the union representative. Steps 2
and 3 involve formal discussions with appropriate management and union representatives at the local, regional, or
national level.




                                                         5
Grievance Overpayments in the Baltimore District                                                   HR-AR-10-001



discuss the negative payouts in the Long Island District with management as we
determined it was immaterial. However, we reviewed the Louisiana District’s negative
payout and determined that it represented duplicate grievance payments totaling
$372,675.8 The duplicate payments were caused by a processing error and the
payments were canceled prior to disbursement.




8
 The dollar value reported in GATS represents a net figure. In January 2009 some grievance payouts were correctly
paid. Those payments offset the $372,675 of canceled checks and resulted in a net payment reported in GATS of
$245,686.




                                                        6
Grievance Overpayments in the Baltimore District                                                        HR-AR-10-001



                                  APPENDIX C: MONETARY IMPACTS

                                                Monetary Impacts

                    Finding                     Impact Category                              Amount
                       1                Recoverable Questioned Costs9                       $1,669,669




9
    Recoverable costs that are unnecessary, unreasonable, or an alleged violation of laws or regulations.




                                                            7
Grievance Overpayments in the Baltimore District           HR-AR-10-001



                       APPENDIX D: MANAGEMENT’S COMMENTS




                                                   8
Grievance Overpayments in the Baltimore District       HR-AR-10-001




                                                   9
Grievance Overpayments in the Baltimore District        HR-AR-10-001




                                                   10
